                                  LONGSHORE AND HARBOR WORKERS'
                                   COMPENSATION ACT SPECIAL FUND

                                            TABLE OF CONTENTS




                                                                       PAGE

ACRONYMS                                                                         ii

MANAGEMENT DISCUSSION AND ANALYSIS

 Mission and Organizational Structure                                   I    -   1
 Financial Highlights                                                   I    -   1
 Performance Goals and Results                                          I    -   1
 Limitations of the Financial Statements                                I    -   2

FINANCIAL STATEMENTS

 Balance Sheets                                                        II    -   1
 Statements of Net Cost                                                II    -   2
 Statements of Changes in Net Position                                 II    -   3
 Statements of Budgetary Resources                                     II    -   4
 Statements of Financing                                               II    -   5

NOTES TO FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                   III   -   1
 Note 2 – Funds with U.S. Treasury                                     III   -   3
 Note 3 - Investments                                                  III   -   3
 Note 4 - Accounts Receivable, Net                                     III   -   4
 Note 5 - Other Liabilities                                            III   -   5
 Note 6 - Related Party Transactions                                   III   -   5
 Note 7 – Reconciliation to the Budget                                 III   -   5
 Note 8 – Contingencies and Commitments                                III   -   6




OIG Report No. 22-02-010-04-432                                    i
                                  LONGSHORE AND HARBOR WORKERS'
                                   COMPENSATION ACT SPECIAL FUND

                                                  ACRONYMS




CFO            Chief Financial Officer

DCCA           District of Columbia Workmen’s Compensation Act Special Fund

DLHWC          Division of Longshore and Harbor Workers’ Compensation

DOL            Department of Labor

ESA            Employment Standards Administration

FASAB          Federal Accounting Standards Advisory Board

FMFIA          Federal Managers' Financial Integrity Act

FUND           Longshore and Harbor Workers' Compensation Act Special Fund

FY             Fiscal Year

JFMIP          Joint Financial Management Improvement Project

LCMS           Longshore Case Management System

LHWCP          Longshore and Harbor Workers’ Compensation Program

OCFO           Office of the Chief Financial Officer

OMB            Office of Management and Budget

OWCP           Office of Workers' Compensation Programs




OIG Report No. 22-02-010-04-432                                               ii
                          U. S. DEPARTMENT OF LABOR

               EMPLOYMENT STANDARDS ADMINISTRATION




                                   SECTION I

                MANAGEMENT DISCUSSION
                                  AND ANALYSIS




                                     Fiscal Year 2001
                                   Financial Statements

OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2001


MISSION AND ORGANIZATIONAL STRUCTURE

The Longshore and Harbor Workers’ program mission is to effectively administer a program of compensation and
medical benefits to covered workers who are injured on the job or suffer from occupational disease.

The reporting entity is the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). Organizationally the
Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation (DLHWC) has direct
responsibility for administration of the Fund. The Fund supports the program mission by providing compensation, and in
certain cases, medical care payments to employees disabled from injuries which occurred on the navigable waters of the
United States, or in adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also extends
benefits to dependents if any injury resulted in the employee's death.

Administrative services for operating the Fund are provided by the DLHWC through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying statements.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

FINANCIAL HIGHLIGHTS

The majority of revenue of the Fund $133,948,006 is generated through annual recurring assessments paid by self-insured
employers and insurance carriers. This compares with revenue of $132,300,020 for FY 2000. During FY 2001 and 2000,
substantial recoveries were made for the Fund due to activities involving audits of Forms LS-513, Report of Payments
(used in the calculation of the annual assessment), and negotiation/collection of past due assessments. Equally important,
the audits have uncovered common reporting errors and other record-keeping mistakes which, when discovered, are being
eliminated. The on-going audit program recovered $2,966,396 in FY 2001 and $51,276 in FY 2000 for the Fund. These
recoveries have and will continue to reduce carrier assessments.

Investment income for the Fund was $1,890,879 for FY 2001 compared to $2,457,542 for FY 2000. The average interest
rate earned during FY 2001 was 4.28 percent compared to 5.49 percent for FY 2000. The Fund’s costs remained
relatively stable compared to FY 2000; $130,725,941 for FY 2001 compared to $129,452,878 for FY 2000.


PERFORMANCE GOALS AND RESULTS

The DLHWC supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal broadly promotes
the economic security of workers and families. In particular, the DLHWC program supports Outcome Goal 2.2 – To
Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits are protected and
that employers administer benefit programs in an appropriate way. The Longshore program assists in meeting this
outcome goal.


                                                          I-1

OIG Report No. 22-02-010-04-432
                                     LONGSHORE AND HARBOR WORKERS’
                                      COMPENSATION ACT SPECIAL FUND

                                  MANAGEMENT DISCUSSION AND ANALYSIS
                                         SEPTEMBER 30, 2001


PERFORMANCE GOALS AND RESULTS - Continued

The Longshore program also supports ESA’s Strategic Goal 2. This goal simply stated is to secure public confidence
through excellence in the management and delivery of ESA’s programs and services. The Longshore program supports
this ESA strategic goal by subscribing to ESA’s Outcome Goal 2.4. This outcome goal is to foster organizational
excellence and increase collaboration. In order to accomplish this outcome Longshore has established the following
performance goal for FY 2001:

         To reduce the average time required to resolve disputed issues in Longshore and Harbor Worker’s
         Compensation Program contested cases, establish a performance baseline by the end of FY 2001 and begin
         data collection for performance tracking.

This goal was met. A performance baseline of 242 days was established and performance data tracking is underway.

The Longshore and Harbor Workers’ Compensation Act provides medical benefits, compensation for lost-wages and
rehabilitation services for job-related injuries, diseases or death of private-sector workers in certain maritime and related
employment. Generally, benefits are paid directly from private funds by an authorized self-insured employer or through
an authorized insurance carrier. Cases meeting the requirements of the Longshore and Harbor Workers’ Compensation
statute are paid from the Fund comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In FY 2001, 6,350 workers (customers) received compensation benefits from the Fund.


LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations of the financial statements are a required part of the accompanying overview.

         -   The financial statements have been prepared to report the financial position and results of operations of the
             entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of a sovereign entity, that
             liabilities cannot be liquidated without the enactment of an appropriation, and that the payment of all
             liabilities other than for contracts can be abrogated by the sovereign entity.




                                                            I-2

OIG Report No. 22-02-010-04-432
                          U. S. DEPARTMENT OF LABOR

               EMPLOYMENT STANDARDS ADMINISTRATION




                                    SECTION II

                   FINANCIAL STATEMENTS




                                  Fiscal Year 2001 and 2000
                                     Financial Statements

OIG Report No. 22-02-010-04-432
                                      LONGSHORE AND HARBOR WORKERS’
                                       COMPENSATION ACT SPECIAL FUND

                                                BALANCE SHEETS
                                         As Of September 30, 2001 and 2000


                                                                                    2001           2000
ASSETS

  Intragovernmental assets
    Funds with U.S. Treasury (Note 2)                                        $      274,210   $      450,598
    Investments (Note 3)                                                         58,712,126       58,378,978

  Total intragovernmental assets                                                 58,986,336       58,829,576

  Accounts receivable, net (Note 4)                                               3,537,853        1,226,777

Total Assets                                                                 $ 62,524,189     $ 60,056,353


LIABILITIES AND NET POSITION

Liabilities
  Accrued benefits payable                                                   $ 1,738,899      $    1,284,834
  Deferred revenue                                                            32,366,805          33,170,925
  Other liabilities (Note 5)                                                   1,625,048           1,939,101

Total liabilities                                                                35,730,752       36,394,860

Net position
 Cumulative results of operations                                                26,793,437       23,661,493

Total Liabilities and Net Position                                           $ 62,524,189     $ 60,056,353




The accompanying notes are an integral part of these statements.

                                                         II - 1

OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                         STATEMENTS OF NET COST
                                 For The Years Ended September 30, 2001 and 2000


                                                                             2001          2000

SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                              $ 120,088,037   $ 119,537,494
 Wage increase compensation, Section 10(h)                                 2,301,236       2,470,725
 Compensation payment for self-insurer in default, Section 18(b)           4,699,839       4,780,069
 Rehabilitation services 39 (c)                                            3,138,657       2,498,457
 Rehabilitation maintenance, Section 8(g)                                      1,016          25,073
 Medical services, Section 7(e)                                                1,647             934
 Disbursement – bankrupt self-insured employers                              495,509         140,126

Net cost of operations                                                 $ 130,725,941   $ 129,452,878




The accompanying notes are an integral part of these statements.

                                                         II - 2
OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                STATEMENTS OF CHANGES IN NET POSITION
                                 For The Years Ended September 30, 2001 and 2000




                                                                           2001               2000

CHANGE IN NET POSITION

Net cost of operations                                                 $ (130,725,941)   $ (129,452,878)

Net financing sources
 Non-exchange revenue
 Assessments                                                              133,948,006        132,300,020
 Interest                                                                   1,890,879          2,457,542
    Total                                                                 135,838,885        134,757,562

  Transfers-out (Note 6)                                                   (1,981,000)        (1,740,000)

Total net financing sources                                               133,857,885        133,017,562

  Net results of operations                                                 3,131,944          3,564,684

Net position, beginning of period                                          23,661,493         20,096,809

Net position, end of period                                           $    26,793,437    $    23,661,493




The accompanying notes are an integral part of these statements.
                                                          II - 3

OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                 STATEMENTS OF BUDGETARY RESOURCES
                                 For The Years Ended September 30, 2001 and 2000


                                                                            2001             2000

BUDGETARY RESOURCES (Note 7)

  Budgetary authority                                                 $   133,146,965   $ 136,239,448
  Unobligated balances, beginning                                          57,053,214      52,196,458

Total budgetary resources                                             $   190,200,179   $ 188,435,906


STATUS OF BUDGETARY RESOURCES

  Obligations incurred (Note 7)                                       $   133,010,567   $ 131,382,692
  Unobligated balances available                                              568,668       1,397,519
  Unobligated balances not available                                       56,620,944      55,655,695

Total status of budgetary resources                                   $   190,200,179   $ 188,435,906


OUTLAYS (Note 7)

  Obligations incurred                                                $ 133,010,567     $ 131,382,692
  Obligated balance, net, beginning                                        1,143,866           909,732
  Less obligated balance, net, ending                                     (1,597,930)       (1,143,865)

Total outlays                                                         $ 132,556,503     $ 131,148,559




The accompanying notes are an integral part of these statements.
                                                          II - 4

OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                         STATEMENTS OF FINANCING
                                 For The Years Ended September 30, 2001 and 2000




                                                                             2001            2000

OBLIGATIONS AND NON-BUDGETARY RESOURCES

  Obligations incurred                                               $    133,010,567    $ 131,382,692
  Transfers, net                                                           (1,981,000)      (1,740,000)

Total obligations as adjusted and non-budgetary resources                 131,029,567     129,642,692


COSTS OF OPERATIONS NOT CONSUMING RESOURCES

  Benefit overpayments                                                       (303,626)       (330,782)

Total costs of operations not consuming resources                            (303,626)       (330,782)

FINANCING SOURCES YET TO BE PROVIDED                                                 -         140,968


Net cost of operations                                                   $ 130,725,941   $ 129,452,878




The accompanying notes are an integral part of these statements.
                                                          II – 5

OIG Report No. 22-02-010-04-432
                          U. S. DEPARTMENT OF LABOR

               EMPLOYMENT STANDARDS ADMINISTRATION




                                   SECTION III

                              NOTES TO THE
                   FINANCIAL STATEMENTS




                                  Fiscal Year 2001 and 2000
                                     Financial Statements

OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For The Years Ended September 30, 2001 and 2000


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). The
Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care payments
to employees disabled from injuries which occurred on the navigable waters of the United States, or in adjoining areas
used for loading, unloading, repairing, or building a vessel. The Fund also extends benefits to dependents if any injury
resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing and activities of the Longshore and Harbor Workers’ Compensation Act Special Fund
(Fund), in accordance with accounting principles generally accepted in the United States of America and the form
and content requirements of OMB Bulletin 97-01. These financial statements have been prepared from the books
and records of the Fund. These financial statements are not intended to present, and do not present, the full cost of
the Longshore and Harbor Workers’ Compensation Act Program (Longshore Program). In addition to the Fund
costs presented in these statements, the full cost of the Longshore Program would include certain direct costs of
ESA in the form of salaries and expenses for administration of the Longshore Program and allocated costs of ESA
and other DOL agencies incurred in support of the Longshore Program. The full cost of the Longshore Program is
included in the Consolidated Financial Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of
federal funds. These financial statements are different from the financial reports, also prepared for the Fund pursuant to
OMB directives, used to monitor the Fund’s use of budgetary resources.

C.       Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.
                                                      III - 1

OIG Report No. 22-02-010-04-432
                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For The Years Ended September 30, 2001 and 2000


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims or
otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included as
benefit overpayments receivable are Fund benefit overpayments made to individuals who were determined ineligible to
receive benefits.

F.       Accounts Payable

Accounts payable represent the amount of monies or other resources that are likely to be paid within the next twelve
months by the Fund as the result of a transaction or event that has already occurred.

G.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been deferred.

H.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers.
Assessments are recognized as non-exchange revenue when due. Included in revenues are recoveries of amounts
reassessed to carriers related to prior years. These reassessments primarily result from audits of reported carrier
data. Recoveries amounted to $2,966,396 and $52,176 during the fiscal years ended September 30, 2001 and
2000, respectively.

The Fund also receives interest on Fund investments and on Federal funds in the possession of non-Federal
entities.



                                                           III - 2

OIG Report No. 22-02-010-04-432
                                   LONGSHORE AND HARBOR WORKERS'
                                    COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For The Years Ended September 30, 2001 and 2000


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with U.S. Treasury at September 30, 2001 and 2000 consisted of the following:

                                                                           Entity Assets – September 30, 2001

                                                           Obligated                      Unobligated
                                                                              Available                  Restricted     Total
Trust funds                                              $         -         $ 274,210                  $ -         $ 274,210

                                                                           Entity Assets – September 30, 2000

                                                         Obligated                        Unobligated
                                                                              Available                  Restricted     Total
Trust funds                                              $         -         $ 450,598                  $ -         $ 450,598


Funds with the U.S. Treasury at September 30, 2001 and 2000 include $1,917 and $62,544 respectively which are being
held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act. These funds relate
to the default of self-insured employers and are available for payment of compensation and medical benefits to covered
employees of the defaulted companies.

NOTE 3 - INVESTMENTS

Investments at September 30, 2001 and 2000 consisted of the following:

                                                                              September 30, 2001

                                              Face                                     Net               Market
                                              Value                    Discount       Value               Value

Intragovernmental securities
  Marketable                              $ 59,082,000         $ (369,874)          $ 58,712,126         $ 58,712,126


                                                                              September 30, 2000

                                              Face                                     Net               Market
                                              Value                    Discount       Value               Value

Intragovernmental securities
  Marketable                              $ 59,144,000         $ (765,022)          $ 58,378,978         $ 58,378,978

Investments of $1,130,562 and $912,871 for 2001 and 2000 are being held as security by authority of Section 32 of the
Longshore and Harbor Workers' Compensation Act. These investments are available for payment of compensation and

                                                         III - 3

OIG Report No. 22-02-010-04-432
                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For The Years Ended September 30, 2001 and 2000


NOTE 3 – INVESTMENTS - Continued

medical benefits to covered employees of the defaulted companies. Investments at September 30, 2001 and 2000 consist of
short-term U.S. Treasury Bills and are stated at amortized cost which approximates market. Investments at September 30,
2001 bear interest rates varying from 2.24% to 3.44% compared to rates varying from 5.84% to 6.09% for 2000. Interest
rates on securities bought and sold during fiscal year 2001 ranged from 1.74% to 6.16% compared to 4.53% to 6.09% for
fiscal year 2000.


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2001 and 2000 consisted of the following:

                                                                                       2001                      2000
Entity assets
  Benefit overpayments                                                           $ 1,384,408            $     1,080,777
  Assessments receivable                                                           2,351,723                    310,832

  Less: allowance for doubtful accounts                                            (198,278)                  (164,837)

    Total accounts receivable, net                                               $ 3,537,853                $ 1,226,777

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to claimants arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

Changes in the allowance for doubtful accounts during 2001 and 2000 consisted of the following:

                                                                 September 30, 2001
                                      Allowance                             Revenue                   Allowance
                                         9-30-00           Writeoffs     Adjustment       Bad Debt       9-30-01
Entity assets
  Benefit overpayments                $ (28,260)   $          -                    $              -   $ (28,260)
  Assessment receivable                (136,577)      2,552,939          (2,586,380)              -     (170,018)
                                      $(164,837)    $ 2,552,939        $ (2,586,380)              -   $ (198,278)


                                                                 September 30, 2000
                                      Allowance                              Revenue                  Allowance
                                         9-30-99           Writeoffs     Adjustment       Bad Debt       9-30-00
Entity assets
  Benefit overpayments                $ (15,167)       $       -         $ (13,093)               -   $ (28,260)
  Assessment receivable                (600,000)         458,343              5,080               -     (136,577)
                                      $(615,167)       $ 458,343         $ (8,013)                -   $ (164,837)


                                                            III - 4
OIG Report No. 22-02-010-04-432
                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For The Years Ended September 30, 2001 and 2000


NOTE 5 - OTHER LIABILITIES

Other liabilities at September 30, 2001 and 2000 consisted of the following current liabilities:

                                                                                         2001                     2000
Other liabilities
  Assessment overpayments by carriers                                               $ 492,569             $            963,686
    Defaulted employer liability
    Held in investments                                                               1,130,562                        912,871
    Held in cash                                                                          1,917                         62,544
                                                                                      1,132,479                        975,415

  Total other liabilities                                                           $ 1,625,048              $    1,939,101

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to funds and investments held by the Longshore Special Fund which are being held as
security by authority of Section 32 of the Act. These funds and investments are available for compensation and medical
benefits to covered employees of the defaulted companies. Management estimates that these funds and investments held
will not be sufficient to cover the future benefits associated with the covered employees.


NOTE 6 - RELATED PARTY TRANSACTIONS

The Fund reimburses the Office of Workers' Compensation Programs (OWCP) (a related entity within the Employment
Standards Administration) for rehabilitation services provided to eligible claimants and certain direct expenses associated
with administrative support of the Fund. Amounts paid to the OWCP were $1,981,000 in 2001 and $1,740,000 in 2000.


NOTE 7 - RECONCILIATION TO THE BUDGET

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the years ended September 30, 2001
and 2000 are shown below:

                                                                             September 30, 2001
                                                                      Budgetary      Obligations
(Dollars in Millions)                                                 Resources         Incurred        Outlays

Statement of Budgetary Resources                                      $    190       $       133         $       133

Budget of the United States Government                                $    190       $       133         $       133



                                                            III - 5

OIG Report No. 22-02-010-04-432
                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For The Years Ended September 30, 2001 and 2000


NOTE 7 - RECONCILIATION TO THE BUDGET - Continued

                                                                                September 30, 2000
                                                                    Budgetary       Obligations
(Dollars in Millions)                                               Resources         Incurred          Outlays

Statement of Budgetary Resources                                    $    188       $      131           $   131

Budget of the United States Government                              $    188       $      131           $   131


NOTE 8 - CONTINGENCIES AND COMMITMENTS

In the opinion of the management of the Fund and its legal counsel, there is no pending or threatened litigation which has
a reasonable possibility of materially affecting the financial position or results of operations of the Fund.

Section 39(c)(2) of the Longshore and Harbor Workers' Compensation Act authorizes vocational rehabilitation of disabled
employees and Section 8(g) provides additional compensation to disabled employees while undergoing rehabilitation
training. Rehabilitation services paid from the Fund are mainly provided by private counselors and private training
facilities. The rehabilitation agreements are funded by future assessments from the insurance carriers and self-insured
employers. The amount of the outstanding rehabilitation agreements at September 30, 2001 and 2000 are $2,338,559 and
$5,846,397, respectively.




                                                          III - 6

OIG Report No. 22-02-010-04-432
